           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      SUPPLEMENTAL SECURITY
   INCOME RECIPIENT MARRIAGES
       NOT REPORTED TO THE
 SOCIAL SECURITY ADMINISTRATION

    May 2008      A-01-07-27109




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      May 19, 2008                                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Supplemental Security Income Recipient Marriages Not Reported to the Social Security
           Administration (A-01-07-27109)


           OBJECTIVE

           Our objective was to determine whether individuals were receiving Supplemental
           Security Income (SSI) payments inappropriately by not reporting their marriages to
           Old-Age, Survivors and Disability Insurance (OASDI) beneficiaries.

           BACKGROUND

           The Social Security Administration (SSA) administers the OASDI and SSI programs.
           The OASDI program provides benefit payments to qualified retired and disabled
           workers and their dependents as well as to survivors of insured workers. 1 The SSI
           program provides a minimum level of income to financially needy individuals who are
                                    2
           aged, blind or disabled.

           The SSI program requires that individuals’ income, resources and living arrangements
           be assessed on a monthly basis to determine eligibility and payment amounts.
           Therefore, SSA conducts redeterminations and limited issue reviews to ensure
           recipients remain eligible for SSI payments. 3 Scheduled redeterminations are selected
           annually or once every 6 years, depending on the likelihood of payment error.
           Unscheduled redeterminations and limited issue reviews are initiated when SSI
           recipients report—or SSA discovers—certain changes in circumstances that could
           affect continuing SSI payment amounts.



           1
               The Social Security Act § 201, et seq., 42 U.S.C. § 401, et seq.
           2
               The Social Security Act § 1601, et seq., 42 U.S.C. § 1381, et seq.
           3
            Redeterminations are periodic reviews of the non-medical factors of SSI eligibility (20 C.F.R. § 416.204).
           Limited issue reviews are redeterminations that are limited in scope and do not require a full review of
           eligibility (SSA, Program Operations Manual System [POMS], SI 02305.015).
Page 2 - The Commissioner


The amount of a recipient’s SSI payment is based on many factors, including marital
status. Generally, SSA relies on SSI recipients to voluntarily report any changes in their
                                      4
marital status or living arrangements. For example, a marriage could affect the
deeming of income from a spouse not receiving SSI to the SSI recipient. 5 When both
members of a couple receive SSI payments and live together, they receive a lower
payment amount as a couple rather than as two individuals. 6 When one individual
receives SSI payments, the spouse’s income—whether from earnings or OASDI
                                                              7
benefits—is deemed available to meet the recipient’s needs. Based on the amount,
such income may reduce or eliminate the individual’s SSI payments.

For SSI purposes, a marital relationship is one in which members of the opposite sex
are
      •   legally married under the laws of the State where they have their permanent
          home or
      •   living together in the same household and holding themselves out as husband
                                                        8
          and wife to the community in which they live.

METHODOLOGY
To perform this review, we analyzed a file of all SSI recipients and all OASDI
beneficiaries receiving benefits as of June 2006. Based on a match of recipients and
beneficiaries with the same ZIP code, last name and first 8 characters of the address,
we identified 146,285 cases for review. Then, based on additional computer matching
and analysis, we limited our population to 9,945 recipients who may have received SSI
payments inappropriately by not reporting a marriage to an OASDI beneficiary living at
the same address. We selected a random sample of 200 cases and asked the Agency
to determine their marital status and whether they were receiving SSI payments
appropriately. (See Appendix B for additional information on our scope, methodology
and sample results.)




4
 In March 2008, SSA informed us that only four or five states have marriage/divorce data available
electronically.
5
 The term deeming identifies the process of considering another person’s income and resources to be
available for meeting an SSI claimant’s (or recipient’s) basic needs for food and shelter (SSA, POMS,
SI 01310.001).
6
 As of January 2008, the Federal benefit rate for an individual was $637 and for a couple was $956 (SSA,
POMS, SI 02001.020).
7
    SSA, POMS, SI 01320.650.
8
    SSA, POMS, SI 00501.150.
Page 3 - The Commissioner


RESULTS OF REVIEW
SSI recipients in our population received payments inappropriately by not reporting their
marriages to OASDI beneficiaries. Based on our sample, we estimate that about
2,088 recipients were overpaid approximately $24.8 million. By stopping these
payments, the Agency could save an estimated $7.1 million that would be paid to about
2,039 recipients over the next 12 months.

SAMPLE RESULTS

Our review of 200 sample cases
found:
                                                                Results of Review
     •   42 recipients received
                                                                200 Sample Cases
         $497,808 in SSI payments
         inappropriately because they
                                                                   Paid Appropriately
         did not report their marriage                             140 Cases (70%)
         to an OASDI beneficiary. 9
         The Agency will save an
         additional $143,031 over the
         next 12 months by adjusting
         the payments for 41 of the
         recipients. 10
     •   11 recipients were overpaid
                                                 Overpaid                                      Pending
         $40,218 for other reasons.                Other                                       7 Cases
                                                                 Paid Inappropriately
     •   140 recipients were not                 Reasons
                                                                  (Due to Marriage)
                                                                                                 (4%)
                                                 11 Cases
         overpaid.                                 (5%)            42 Cases (21%)

     •   7 recipients’ payments were
         still under review as of April 2008.




9
  The 42 recipients were overpaid $11,852, on average—ranging from $70 to $89,465, with a median of
$8,229. These overpayments covered a period of 42 months, on average—ranging from 1 to 296 months
(24 years), with a median of 26 months. These amounts were limited by the Agency’s discretionary rules
for administrative finality. In general, under these rules, the Agency will revise monthly SSI payments
within 12 months for any reason, within 24 months for good cause, or at any time if fraud or similar fault
exists (20 C.F.R. §§ 416.1488-1489).
10
  One recipient was overpaid because she lived with her spouse until August 2007, when they moved
apart. Since then, her ongoing payments have been for the correct amount.
Page 4 - The Commissioner


RECIPIENTS PAID INAPPROPRIATELY BECAUSE OF UNREPORTED MARRIAGES
OR HOLDING OUT

The 42 recipients, whose marriages were unreported to SSA, resulted in $497,808 in
                    11
improper payments.

     •   Of the 42 married recipients, 38 were issued $350,942 in improper SSI
         payments.

         A California couple was overpaid $63,879 because they did not report their
         marriage to SSA. Their lack of action/reporting resulted in 296 months
         (24 years) of overpayments. They admitted they were always married and never
         eligible for SSI payments. This case has been referred to our Office of
         Investigations for possible fraud.

         A Michigan couple was overpaid $7,754 in SSI payments. The wife began
         receiving payments in September 2001. The husband was not in the household
         when payments began but returned to the household in February 2005. He
         thought by reporting his change of address to the Post Office, he was also
         notifying SSA. The husband understands he and his spouse were overpaid
         under the SSI program during any period they resided together.

         A California couple was overpaid $3,045 in SSI payments. In this instance, the
         husband moved in and out of the household several times. However, he
         permanently returned to the household 3 years ago. His spouse, who is an SSI
         recipient, admitted that she should have reported to SSA when her husband
         moved back into the household 3 years ago, since his income and resources
         affect her SSI payments.

     •   The remaining four recipients were found to be holding out as married resulting
         in $146,866 in improper SSI payments.

         An unmarried couple living in California informed SSA that they present
         themselves as husband and wife. Based on this information, SSA posted an
         overpayment of $89,465 for a period of 260 months (21 years).




11
   As of April 2008, 12 cases had been referred to our Office of Investigations for possible fraud—3 were
closed with no findings, and 9 were still being investigated.
Page 5 - The Commissioner


ADDITIONAL OVERPAYMENTS DETECTED—UNRELATED TO MARRIAGE

As a result of our audit, the Agency assessed overpayments in 11 cases that may have
otherwise been undetected. See the table below.

                   REASON FOR                NUMBER OF              SSI
                  OVERPAYMENT                  CASES           OVERPAYMENT
        In-Kind Support and Maintenance          4               $11,371
        Excess Income                            2                $5,891
        Excess Resource                          3               $17,338
        Living Arrangements                      2                $5,618
                      TOTAL                     11               $40,218

An SSI recipient in California was overpaid $2,000 for a period of 25 months. Although
the recipient was not married, she was overpaid because she was receiving in-kind
support and maintenance of which SSA was unaware. Specifically, the SSI recipient’s
son, the landlord, had reduced her rent by $100 a month.

Another example involves a recipient in West Virginia who began receiving SSI
payments in February 2002. Her ex-husband paid her alimony from their divorce in
August 2002 until October 2002. Because of our audit, SSA discovered that the ex-
husband had been paying $342 of her monthly mortgage since November 2002, and
she had failed to report this. The Agency determined that she was overpaid $5,082 due
to in-kind support and maintenance.

CONCLUSION AND RECOMMENDATION

We identified SSI recipients receiving payments inappropriately by not reporting their
marriages to OASDI beneficiaries. To assist SSA in detecting and preventing improper
payments, we recommend the Agency:

   1.     Review the remaining cases from our audit population that are most likely to
          result in overpayments due to unreported marriages.

AGENCY COMMENTS
SSA agreed with the recommendation. (See Appendix C.)




                                               Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology and Sample Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
OASDI    Old-Age, Survivors and Disability Insurance
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                     Appendix B

Scope, Methodology and Sample Results
To accomplish our audit, we:

   Reviewed applicable sections of the Social Security Act and Social Security
    Administration (SSA) regulations, rules, policies and procedures.
   Reviewed prior Office of the Inspector General audits.
   Obtained from SSA a file of all Supplemental Security Income (SSI) and Master
    Beneficiary Records for individuals in current payment status in June 2006. We
    tested the data obtained for our audit for accuracy and completeness and
    determined they were sufficiently reliable to meet our audit objective.
   Identified a preliminary population of 146,285 cases based on a match of recipient
    and beneficiary records with the same ZIP code, last name and first 8 characters of
    the address.
   Narrowed the population by removing
          SSI records that were couples’ records;
          couples born more than 20 years apart;
          address matches with different Post Office Box numbers;
          records that had accounted for an Old-Age, Survivors and Disability
           Insurance (OASDI) beneficiary’s payment; and
          couple matches who had the same parents (indicating they were siblings).
   Identified a population of 9,945 SSI recipients who may be married to an OASDI
    beneficiary at the same address but did not report that information to SSA.
   Referred a sample of cases to SSA to determine the recipients' marital status and
    whether they were being paid appropriately.
   Quantified for each sample case the amount of SSI payments that were issued
    because the recipient did not report a marriage. Specifically, we:
      1. Quantified the amount of SSI payments SSA determined were overpaid
         because the recipient did not report a marriage.
      2. Quantified the amount of SSI payments the Agency would have continued to
         pay over a 12 month period because the recipient did not report a marriage.
         To calculate this amount we multiplied the amount of the last monthly
         overpayment amount by 12.
   Projected results of the sample to the population.


                                           B-1
We conducted our audit between October 2007 and April 2008 in Boston,
Massachusetts. The entities audited were SSA's field offices under the Deputy
Commissioner for Operations. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

SAMPLE RESULTS AND PROJECTIONS 1

                     Table 1: SSI Recipients Improperly Paid Because
                              They Did Not Report Marriages
                  Population size                                            9,945
                  Sample size                                                   200
                                       Attribute Projections
                  Sample cases                                                   42
                  Point estimate                                             2,088
                  Projection lower limit                                     1,632
                  Projection upper limit                                     2,610
                 Note: All projections were calculated at the 90-percent confidence level.



                    Table 2: Payments Issued Inappropriately Because
                           Recipients Did Not Report Marriages
                  Population size                                            9,945
                  Sample size                                                   200
                                         Dollar Projections
                  Sample results                                         $497,808
                  Point estimate                                     $24,753,496
                  Projection lower limit                             $14,477,524
                  Projection upper limit                             $35,029,468
                 Note: All projections were calculated at the 90-percent confidence level.




1
  The amounts in the following tables are rounded to the nearest whole dollar. Any differences are due to
rounding.


                                                   B-2
  Table 3: SSI Recipients With Potential Savings If All
               Marriages Were Reported
 Population size                                            9,945
 Sample size                                                   200
                      Attribute Projections
 Sample cases                                                   41
 Point estimate                                             2,039
 Projection lower limit                                     1,587
 Projection upper limit                                     2,556
Note: All projections were calculated at the 90-percent confidence level.



  Table 4: Payments SSA Could Potentially Save If All
              Marriages Were Reported
 Population size                                            9,945
 Sample size                                                   200
                        Dollar Projections
 Sample results                                         $143,031
 Point estimate                                      $7,112,193
 Projection lower limit                              $4,904,029
 Projection upper limit                              $9,320,356
Note: All projections were calculated at the 90-percent confidence level.




                                  B-3
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      April 28, 2008                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Supplemental Security Income Recipient
           Marriages Not Reported to the Social Security Administration” (A-01-07-27109)—
           INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our response to the recommendation is
           attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“SUPPLEMENTAL SECURITY INCOME RECIPIENT MARRIAGES NOT
REPORTED TO THE SOCIAL SECURITY ADMINISTRATION” (A-01-07-27109)

Thank you for the opportunity to review and provide comments on this draft report. We agree
that identification of unreported marriages of Supplemental Security Income (SSI) recipients is a
necessary task in the effective stewardship of the SSI program and we continue to make strides in
this area.

Recommendation

Review the remaining cases from the audit population that are most likely to result in
overpayments due to unreported marriages.

Comment

We agree. We are taking the necessary actions to forward the remaining cases to our field offices
for investigation. The field offices will determine if the recipients in question are married, if the
marriage is material to eligibility or payment amount, and if a referral for fraud investigation is
appropriate. A completion date for the review of the remaining cases has yet to be determined.




                                                C-2
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807

Acknowledgments

In addition to those named above:

   Chad Burns, Auditor

   Phillip Hanvy, Senior Program Analyst

   Kevin Joyce, IT Specialist

   Kathleen Toli, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-07-27109
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and
procedures, internal controls, and professional standards, the OIG also has a comprehensive Professional
Responsibility and Quality Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                        Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
